No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

DIETER RIECHMANN,
Petitioner,
v.

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,

 

Respondent.

|
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Dieter Riechmann, pursuant to SUP CT. R. 39.1, respectfully moves
for leave to file the accompanying petition for writ of certiorari in the Supreme Court
of the United States without payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE
39.1 and ยง 3006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ยง 1746.

|
MICHAEL CARUSO |
FEDERAL PUBLIC DEFENDER |

|

Fort Lauderdale, Florida By:__s/Janice L. Bergmann
October 7, 2020 Janice L. Bergmann

Assistant Federal Public Defender

One East Broward Blvd., Suite 1100

Fort Lauderdale, Florida 33301 |
Telephone No. (954) 356-7436 |
